                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A09040029                                                                       Page 1 of 1



                  NSF OIG received an allegation that a Subject 1 submitted an NSF proposal containing
          plagiarism. Our inquiry determined the Subject submitted two declined and one awarded
          proposal to NSF containing copied material. We referred the matter to the Subject' s University?

                  The University's investigation concluded, based on a preponderance of the evidence, that
          the Subject intentionally committed plagiarism, deemed a significant departure from accepted
          practices, and took actions to protect the University's interests.

                   We adopted the University's findings. Additionally, we determined that the plagiarized
          text in the awarded proposal was material to NSF's decision to fund the proposal, constituting a
          material false statement. We referred the matter to the U.S . Attorney's office, which declined
          prosecution in lieu of administrative action. We recommended NSF immediately suspend the
          award and NSF accepted this recommendation.

                  At the conclusion of our full investigation, we recommended additional actions to be
          taken to protect the federal interest. These actions included terminating the award. The Senior
          Advisor to the Director concurred with our recommendations. The Deputy Director denied the
          Subject's request that NSF amend the imposed actions. The award was subsequently terminated.

                 This memo, the attached Report of Investigation, Senior Advisor to the Director's letter,
          and the Deputy Director's letter constitute the case closeout. Accordingly, this case is closed.




NSF O IG Fonn 2 (1 1/02)
                             NATIONAL SCIENCE FOUNDATION
                                  4201 WILSON BOULEVARD
                                 ARLINGTON, VIRGINIA 22230




                                      JUL 1 6 2012
 OFFICE OF THE
DEPUTY DIRECTOR




 CERTIFIED MAIL- RETURN RECEIPT REQUESTED




                                                                                                 !



         Re:      Decision on Response to Research Misconduct Determination                      !

 Dear D r . -

 On April 16, 2012, Dr. Wanda Ward, Senior Advisor to the Director, issued a Notice of
 Research Misconduct Determination ("Notice") against you. This Notice was issued
 based on NSF's finding that you submitted three proposals to NSF that contained
 plagiarized material. In this Notice, NSF: (1) required you to submit certifications and
 assurances with any proposals or reports filed with NSF until Aprill, 2015; (2) ordered
 you to complete an ethics training course, including a discussion of citation practices, by
 Aprill, 2013; and (3) expressed its intent to terminate your active award. Although you
 did not appeal NSF's research misconduct finding against you, you requested that NSF
 amend the actions that it imposed on you as a result of this finding. This letter constitutes
 NSF's response to your request.

 I am compelled to deny your request. First, NSF does not believe it is appropriate to
 reduce the duration of the certification and assurance requirement imposed upon you.
 The very nature ofNSF's research misconduct process is such that NSF's actions
 routinely begin after those imposed by the subject's university. In addition, it is common
 for NSF's actions to remain in place after similar actions by a university have expired. In
 fact, in determining the appropriate actions to take in connection with a research
 misconduct finding, NSF considers the actions that have been taken previously by the
 subject's institution. In this case, the three-year certification and assurance requirement
 imposed upon you by NSF is consistent with other similar cases, and is commensurate
 with the misconduct in which you engaged.
Second, NSF believes that your employing institution is the appropriate entity to provide
assurances. While a plagiarism detection company theoretically could provide an
assurance related to plagiarism, it likely would be unable to certify that the proposal or
report at issue is free of falsification and fabrication- an integral component ofNSF's
assurance requirement.

Thus, the actions set forth in the April 16, 2012, Notice remain in effect. If you have any
questions about the foregoing, please                               General Counsel, at
(703) 292-8060.



                                                     Sincerely,




                                                     Cora B. Marrett
                                                     Deputy Director
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230

                                        ; ·~ ; 'J'   '' .J
                                                         ,   "r•12
                                                             {_,} I




     OFFICE OF THE
       DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice of Research Misconduct Determination


Dear D r . -
       From 2008-2009, you served as a Principal Investigator ("PI") on three proposals
submitted for funding to the National Science Foundation ("NSF"). As documented in the
attached Investigative Report prepared by NSF's Office of Inspector General ("OIG"), these
proposals contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF .. ."45 CFR § 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
requires that:

       ( 1) There be a significant departure from accepted practices of the relevant research
            community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposals contained 246 unique lines of text copied from 20 source documents, as
well as 12 embedded references. By submitting proposals to NSF that copied the ideas or words
of another without adequate attribution, as described in the OIG Investigative Report, you
                                                                                              Page 2
misrepresented someone else's work as your own. Your conduct unquestionably constitutes
plagiarism. I therefore conclude that your actions meet the definition of "research misconduct"
set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed intentionally and constituted a significant departure
from accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activitie~ from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
intentionally. I have also considered the fact that your misconduct was part of a pattern of
plagiarism, and that the plagiarism played an integral role in the funding of your BRIGE
proposal. In addition, I have considered other relevant circumstances. 45 CFR § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

        (1) Until April1, 2015, you must provide certifications to the OIG that any proposal or
            report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
            fabricated material;

        (2) Until April I, 2015, you must obtain, and provide to the OIG, assurances from a
            responsible official of your employer that any proposal or report you submit to NSF as
            a PI or co-PI does not contain plagiarized, falsified, or fabricated material;

        (3) By Aprill, 2013, you must attend an ethics training course, including a discussion of
            citation practices, and provide a certificate of attendance to the OIG that you have
            completed such a course; and
                                                                                             Page 3




       The certifications, assurances, and certificate of attendance should be submitted in writing
to NSF's OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard,
Arlington, Virginia 22230.



Procedures Governing Appeals
       Under NSF ' s regulations, you have 30 days after receipt of this letter to submit an appeal
ofthis decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are .........,uu~j<,    of the applicable regulations. If you have
any questions about the foregoing, plea.Se                    Assistant General Counsel, at (703)
292-8060.



                                                       Sincerely,




                                                       Wanda Ward
                                                       Senior Advisor to the Director




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
CONFIDENTIAL                                                                     CONFIDENTIAL




      National Science Foundation
        Office of Inspector General




                      ·Confidential
                  Report of Investigation
                 Case Number A09040029
                         December 6, 2011
                 This Confidential Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S. C. §§ 552 &
 552a Please take appropriate precautions handling this confidential report of investigation.

                                                                            NSF OIG Form 22b (n/o6)
                                                                                    CONFIDENTIAL
CONFIDENTIAL



                                     Executive Summary

Allegation:     Plagiarism.

OIG Inquiry:    OIG identified 19 sources from which approximately 200 lines and 16
                embedded references were copied into 2 declined and 1 awarded NSF
                proposals. OIG referred investigation of the matter to the Subject's home
                institution.

University
Investigation
and Action:     The University concluded, based on a preponderance of the evidence, that the
                Subject intentionally committed plagiarism, deemed a departure from
                accepted practices. It also found that four proposals the Subject submitted to
                other entities and the Subject's dissertation contained plagiarized text.

                The University required the Subject to: inform the Co-PI of one of the NSF
                proposals of the charges and investigatory findings; complete a course on
                responsible conduct of research and ensure each of her graduate students also
                completes a course; submit to a University administrator for review all
                publication manuscripts and proposals she intends to submit to external
                entities; and encourage the use of plagiarism detection software for both her
                work and the work of her students.


OIG
Assessment:
                •     The Act: The Subject plagiarized 246lines and 12 embedded references,
                      from 20 sources into 3 NSF proposals.
                •     Intent: The Subject acted intentionally.
                •   · Standard   of Proof: A preponderance of evidence supports the conclusion
                      that the Subject committed plagiarism.
                •     Significant Departure: The Subject's plagiarism represents a significant
                      departure from accepted practices.
                •     Pattern: One additional proposal the Subject subrrlitted during the course
                      of the investigation contained plagiarism.               .

OIG
Recommends:
                •    Make a fmding of research misconduct against the Subject.
                •    Send the Subject a letter of reprimand.
                •    Require certifications from the Subject for a period of 3 years .
                •    Require assurances from the Subject for a period of 3 years .
                •    Require certification of attending an ethics class within 1 year .
                •    Terminate the Subject's NSF award .




                                                1
    CONFIDENTIAL                                                                                   CONFIDENTL'\L


                                                  OIG's Inquiry

            OIG conducted an inquiry into an allegation that the Subject 1 submitted an NSF proposal
    containing copied text. At the tirne, 2 the Subject had submitted 3 proposals to NSF. We
    reviewed each proposal and found that Proposal 13 contained 78 unique lines of copied text and 5
    embedded references from 10 sources; Proposal2 4 contained 74 unique lines of copied text and 5
    embedded references from seven sources; and Pr~osal 3 5 contained 48 unique lines of copied
    text and 6 embedded references from six sources.

           We contacted the Subject about the allegation. 7 In her response, 8 the Subject wrote

                  of the 19 sources from which I am alleged to have plagiarized, I
                  did not copy any of the identified language in 12 (Sources B, D, E,
                  H, I, J, L, M, 0, P, Q and R), copied some, but not all of the
                  identified language in two (Sources F and N) and copied the
                  identified language in five (Sources A, C, G, K, and S) (often with
                  direct or embedded citations which did not comport with the
                  attribution standards as I now understand them, but with no
                  attempt to misappropriate this material as my own). 9

She further stated "nearly all of the alleged plagiarized material appears in the general
introductory and literature review sections of the Proposals, and is comprised of very basic,
general background information that is common in the relevant research comrnunity." 10 She
provided documents to corroborate that the annotated text is common in her field. She claimed
she acted in "honest error" since, as a non-native English speaker raised and educated in China,
she misunderstood the rules of plagiarism as they apply to proposals.ll She also explained she
was under time pressures, submitting "Proposals 2 and 3 to NSF within a period of only two
weeks." 12 She stated she "can state unequivocally that there is no additional text in any of the
Proposals that was copied from another source but not properly distinguished and attributed." 13
The Subject concluded:




  Tab 4 contains Sources A-S.
7
  Tab 5.
8
  Tab 6.
9
  Tab 6, pg ll. (Page numbers here and throughout the report correspond to those assigned by Adobe in the.pdffile.)
10
   Tab.6, pg l.
11
   Tab 6, pg l.
12
   Tab 6, pg 9.
13
   Tab 6, pg 11.


                                                        2
CONFIDENTIAL                                                                                                C ONFIDENTIAL



                       I fully acknowledge that the responsibility for proper attribution
                       and citation in the Proposals is my own, however I was simply not
                       experienced enough and had not received enough training in this
                       area to avoid making some errors in this regard. . . . I
                       acknowledge and regret the mistakes I made, and most assuredly
                       will not make them again, nor do anything else to compromise the
                       flawless record of academic integrity I have amassed to this point
                       .                    14
                       m my young career.

        We reviewed the Subject's response, determined the annotated text from Sources B-D is
                                                                                15
often used without attribution, andre-annotated Proposals 1 and 2 accordingly. In general,
however, the response did not dispel the allegation and there was sufficient evidence to proceed
with an investigation. Most crucially, the Subject acknowledged copying material without
citation, and could not corroborate that other sources contained commonly used language.

           The followmg chart surnmanzes the copied material in Proposals 1-3
               Source                  Proposal!                             Proposal 2                Proposal3
                                       (Awarded)                             (Declined)                (Declined)
     A (report)                                  36lines                               44lines
     B (article)
                 16
                       ·
                                           '      2 .lines     .. ·.<.... ' .,                    ..
                                                                                                            . ··.
                                              · 2lines;             .· .>·         2 lines,
     c (article)                    1 embedded' referen~e           · 1·embedded reference
     D (article)                               .'•. 2lines .
     E (article)                                    8 lines                             8 lines
                                                 12lines,
     F (article)                   2 embedded references
                                                 11 lines,
     G (article)                   2 embedded references
     H (article)                                    3 lines
     I (article)                                    2lines                            2.5 lines
     J (article)                                    2 lines
                                                                                  3 lines,
     K (article)                                                    3 embedded references
     L (article)                                                                  12 lines
                                                                                  2 lines,
     M (article)                                                     1 embedded reference
                                                                                                                 34 lines,
     N (article)                                                                                   5 embedded references
                                                                                                                  2 lines,
     0    (article)                                                                                  1 embedded reference
     P    (article)                                                                                                2 lines
     Q     (article)                                                                                               4 lines
     R     (article)                                                                                               2 lines
     S   (article)                                                                                                 4 Jines
                                              78lines,                          74lines,                         48 lines,
     Total (UNIQUE) 17           5 embedded references             5 embedded references          6 embedded references '

14
   Tab 6, pg2.
15
   Tab 7.
16
   For reasons explained below, we include in this chart line counts from Sources B-D.


                                                               3
     CONFIDENTIAL                                                                                CONFIDENTIAL


                                University Inquiry and Subject's Response

        Consistent with our policy, we referred the investigation to the University. 18 The
 University, consistent with its policies/ 9 conducted·an inquiry and produced an Inquiry Report/ 0
 which stated the committee "voted unanimously in the affirmative that the investigation criteria
 ... were met for each of the alleged instances of plagiarism designated (A) through (S). " 21


        In her response to the Inquiry Report, the Subject stated: "While I respect and appreciate
the work of the inquiry committee, I strongly disagree with its conclusions and
recommendations. I remain steadfast in my conviction that I have not committed any acts of
                       22
research misconduct" Specifically, she argued: "I have maintained all along, and continue to
maintain, that even in the rare instances where copying occurred, such copying did not constitute
plagiarism. " 23                                                                 ·




                                          University Investigation

        The University convened an Investigation Committee (Committee), which conducted
interviews and reviewed evidentiary documents, including position papers the Subject wrote in
her defense and proposal drafts. The Committee produced an Investigation Report (Report),
which it provided to our office with attachments. 24

        Based on the Subject's statements, the Committee reported that the Subject had not read
NSF's research misconduct policy or grant proposal guide despite signing NSF's proposal
submission form certifying that the work was her own and that she would abide by NSF's
policies; 25 and had not read the University's policies on research misconduct, despite having
signed a University contract that she learn, understand, and carry out its policies. 2 It also
reported that the Subject said "I think that this is my misunderstariding, probably, that in the
science and engineering world, it's okay to copy, you know, sentences that's, you know, common
knowledge." She agreed that she felt it was okay to appropriate other people's words, when it
was general knowledge without giving them credit depending on the nature of the sentence; 27
that she ensures she cites the most important papers and scholars in her literature review; 28 and
that she thought citation staridards for grant proposals were lower because one must write


17
   Although material from some sources was repeated within a given proposal, the material was counted only once
within each individual proposaL
18
                      Tab 8 contains the referral letter.
19
   Tab 9.
20
   Tab 10.
21
   Tab 10, pg 9. The inquiry committee included Sources B-D in its analysis.
22
   Tab 10, pg 11.
23
   Tab 10, pg 10.
24
   Tab 11-12.
25
   Tab 11, pg 6-7.
26
   Tab 11, pg 6.
27
   Tab 11, pg 7.
28
   Tab 11,pg8.


                                                        4
CONFIDENTIAL                                                                                      CONFIDENTIAL


multiple proposals due to the low funding rates. 29 Additionally, it reported that the Subject's
stated method of writing proposals included having the "references at hand" and being
"'influenced by' the references while writing," and "memoriz[ing] passages, paraphrase[ing]
sections, or retyp[ing] sections from sources without attribution."30

        The Committee questioned the Subject about each segment of copied text. For some
sources, she acknowledged she used language from the sources. For others, she provided
explanations such as: the text being introductory and/or common knowledge; having used a
different source than the one we identified; feeling constrained by the "limited ways to express"
certain ideas/ 1 and not having copied the text but rather simply being very familiar with the
materiaL

        Particularly interesting was her explanation regarding Source A, a workshop summary
from which she appropriated the majority of copied text in Proposals 1 and 2. 32 This material
appeared in the introduction, literature section, project summary, and the first sentence of the
research plan. 33 She explained she thought citation rules differed for a workshop summary; the
surnmary contained "common fundamental knowledge" in her field; and she had "committed
many portions of it to memory."34 The Committee however noted that she had properly quoted
and cited another workshop summary35 and auestioned how she could memorize a source's exact
words, but not the name of the source itselr_3

        The Committee examined Sources B-D and "found that all of these instances of alleged
plagiarism, and additional instances in the same proposals not identified by the NSF IG,
represented research misconduct." 37 Specifically, it found four sources from which it concluded
the Subject had copied the material we identified as from Sources B-D as well as copied
additional material it identified during its investigation. 38 The Committee also found additional
material copied from Source J in Proposal1. 39 The Committee noted that its identification of
additional copied material contradicted the Subject's response to our office in which she stated
"unequivocally" that the Proposals did not contains additional copied text. 40




29
   Tab 11, pg 9
30
   Tab 11, pg 7.
31
   Tab 11, pg 31.
32
   The Subject told the Committee she wrote Proposal2 before Proposal! and used some of its text in Proposal 1
(Tab 11, pg 13).
33
   Tab 11 , pg 13
34
   Tab 11, pg 12-13.
35
   Tab 11, pg 14.
36
    Tab 11, pg 12 7 The Subject responded that she did memorize the source itself, or at the very least knew which
paper or group of papers text came from, but did not think she needed to cite the source (tab 11, pg 8).
37
   Tab 11, pg 1.
38
   Tab 11, pg 15-18. Three of the sources were named in Proposals 1 and 2's Works Cited sections; the fourth source
was one of the documents the Subject provided us during the inquiry to corroborate use of common language.
39
   Tab 13 contains Proposals 1-3 and the four sources, with newly identified material highlighted in yellow.
   T~b 11, Pg 18.
40




                                                         5
 CONFIDENTIAL                                                                                        CONFIDENTIAL


         The Committee noted a number of contradictions in the Subject's statements. 41 First, the
Subject claimed it was her practice to cite foundational studies; however, she did not always
follow her own stated practice. 42 Second, the Subject's responses to the Committee's questions
often contradicted those she provided to our office. 43 For example, it noted the Subject had not
provided our office the explanation she used repeatedly with the Committee that "she had likely
copied, or memorized or been influenced by or informed by a source or a group of sources, but in
many cases did not remember the specific source or the copied text."44 Last, despite claiming in
a position paper that she has now "a clear understanding of the definition of research misconduct
as well as the consequence of any deviation from the applicable standards,"45 the Subject
                46
plagiarized text and "misrepresented the data of others to support her statements" in that same
paper.47

       The Committee concluded, based on the preponderance of evidence, that the Subject
committed research misconduct when she "intentionally appropriated the words of others
(expression of ideas) without proper citation of the original sources identified by NSF and the
four additional sources identified by the Cornmittee."48

         The Committee concluded the Subject acted intentionally. It wrote:

                  the appropriation ofthe expression of ideas from many sources is
                  extensive and widespread, and her description of the process of
                  writing the proposals taking the expression of ideas from many
                  sources for each section and consciously deciding not reference
                  [sic] these sources indicates the intention to claim credit of the
                  words of others as her own. 49

The Committee determined the Subject "did not forget to cite the sources, but stated that she
reviewed her proposals to make sure that she had used the citations she had intended" 50 and
labeled as "fiction" her claim that she had 'memorized' parts of the text, had been 'influenced
by' or 'informed by' sources." 51 Lastly, the Committee noted that "Some plagiarized text



41
   In general, the Committee found a "lack of candor displayed by the Subject," which it deemed an aggravating
factor (Tab 11, pg 40). It concluded that "her responses at the hearing and the position papers submitted to the
Committee for consideration throughout the process demonstrate her continuing unwillingness to acknowledge the
plain meaning of the standard"(Tab 11, pg 41). The Subject contested this assessment and the University's appeal
committee determined it was possible to interpret the Subject's behavior a different way: "that she presented a fairly
consistent if somewhat confusing explanation of her behavior that admitted responsibility for her actions while
simultaneously arguing the errors were 'honest' and too minor to constitute misconduct" (Tab 11, pg 81 ).
42
   Tab 11, pg 29.
43
   Tab 11, e.g., pg 28.
44
   Tab 11, pg 41.
45
   Tab 11, pg 42.
46
   Tab 11, pg 42
47
   Tab 11 , pg 43 .
48
   Tab 11, pg 39.
49
   Tab 11, pg:40.
50
   Tab 11, pg 40.
51
   Tab 11, pg 40.


                                                          6
 CONFIDENTIAL                                                                                       CONFIDENTIAL



 sections in all three proposals were presented in bold font, italics, or in special colors to convey
                                                                      52
 the contextual significance of the ideas associated with the text."

        The Committee determined the Subject's action constituted a significant departure from
 accepted practices. It wrote:

                        Whether compared to normal expectations and practices with peer
                        academic faculty at [ ]53 University or within the wider body of
                        engineering or science colleagues in the United States, the
                        quantitative level and qualitative nature of appropriation identified
                        within [the Subject]'s three NSF proposals is unequivocally
                        unacceptable. She stated that her personal standard developed from
                        her own experience allowed her to appropriate the words of others
                        without citation under a wide variety of conditions. The accepted
                        [University] and NSF standards for the ethical conduct of research
                                                                     54
                        is simple; it contains no such exemptions."

 Additionally, although the Subject received her pre-doctoral education in China, 55 the Committee
 concluded she received her Ph.D. from a U.S. research institution, 56 and is involved in the
 University's writing lab57 and in U.S.-based academic societies, 58 all of which have a code of
 ethics and/or detail the repercussions of unethical scientific behavior. 59

          To determine pattern, the University's Research Integrity Officer (RI0) 60 examined the
  Subject's Ph.D. thesis, publications, and other proposals. 61 He concluded "that the behavior of
· including text authored by others without properly attributing the source of the text represents a
  pattern of behavior rather than an isolated event." 62 His determination was based on: 1) the
  additional plagiarism the Committee identified in Proposals 1-3; 2) the fact the Subject herself




 52
   Tab 11, pg 40. Based on the extent of plagiarism, the Committee wrote: "it was difficult for the Committee to


 53···
 determine if any of ideas [sic] presented in the remaining text originated with [the Subject]" (Tab 11, pg 40).
 54
 55
 56
    Tab 11, pg 40.
    The Subject received her Bachelor's and Master's degrees f r o m · · · · · · · · · ·
                              We note that the Subject asked the Committee to consider that her Ph.D. advisor died
 suddenly two and a ha1fyears into. her dissertation work (Tab 12, pg 187). She said her "dissertation reflects the
 understandings I developed from [him]," noting he "gave us the impression that it was acceptable to copy text from
 his papers, which we were extending, and to use the same text to describe the same experimental setup" (Tab 12, pg
 203). She added: "We were led to believe that it was appropriate to copy the manual when describing software we
 used, and that attribution standards in NSF proposals are not as stringent as those applicable to journal articles or
 other works intended for broad distribution within the relevant academic community" (Tab 12, pg 203).
 5




60·····
 59


 61
 62
      Tab 11, pg 3-4.

      The documents examined are listed in Tab 11, pg 46-47, and contained in Tab 12, Documents Reviewed.
      Tab 11, pg 2.


                                                           7
 C ONFIDENTL'\.L                                                                                    CONFIDENTL'\L


 acknowledged plagiarism within her dissertation; 63 and 3) plagiarism he identified in four other
    .
 rev1ewe d proposa1s.64

        The RIO did not find plagiarism in the Subject's publications, which he concluded was
"consistent with [the Subject's]stated understanding" that different standards applied to
proposals and publications. 65 Accordingly, the RIO determined the impact of the Subject's
actions "was limited due to the fact that all the instances identified were either in the
Respondent's thesis or in proposals submitted as confidential documents to potential sponsors. " 66

     The Subject provided comments to the draft final Report67 and subsequently appealed the
Committee' s finding. 68 The Appeal Committee "upheld the findings of the Investigation
Committee. " 69


                                             University Adjudication

         The University Provose 0 adjudicated the matter and required that the Subject inform the
Co-PI ofProposal3 about the allegation and the resolution so he does not use the plagiarized
material in the future. Second, the Subject and each of the Subject's graduate students are
required to complete a Responsible Conduct of Research (RCR) course. Third, until December
31, 2013, or the end of her University employment, whichever comes first, a University
administrator must review all manuscripts and proposals the Subject wants to submit to external
entities as author, PI, or Co-PI, via electronic plagiarism detection software. Last, the Provost
encouraged the Subject to use the University's plagiarism detection software for her work and
that of her students. 71


                                                 OIG's Assessment
                                                                                                                   72
        The University provided OIG with its Report, and OIG invited the Subject's comments.
In her response, 73 the Subject argued "the investigation in this matter was substantively and
procedurally flawed, and that the Report's fmding of research misconduct is unsupported by the




63
   Tab II , Pg I . The Respondent submitted a statement to the University with a copy ofher Ph.D. thesis stating that
chapters of her thesis contain verbatim text from a published article, two other theses, and a software manuaL
64
   Tab 11, pg 2. The four proposals (Tab 11, pg 46-47, #3, 4, 6, and 9) were submitted to t h e · · · · ·
65
   Tab   11, pg 2.
66
   Tab   11, pg 2.
67
   Tab   11, pg 51-57.




70······
68
   Tab   11 , pg 58-79.
69
   Tab   11, pg 1. The appeal committee's report is included in Tab 11, pg 80- 84.
71
     Tab 14.
72
     Tab 15.
73
     Tab 16.


                                                           8
CONFIDE NTIAL                                                                                        CONFIDENTIAL



evidence." 74 She asked "that the Report's finding of research misconduct be overturned, but that
           . measures ... remam
the correct1ve                    . m
                                    . pace.
                                       1 "75                            '



        OIG assessed the Report for accuracy and completeness, and found the Report to be both
accurate and complete. We further conclude the University followed reasonable procedures in
conducting its investigation. 76 Indeed, we were highly impressed with the quality of the Report
and attachments, and disagree with the Subject's assessment ofthe University's process and
Report. We adopted the University's findings in lieu of conducting our own investigation.

        Our office did re-annotate Proposals 1 and 2 in light of the additional copied material the
Committee identified. 77 We found an additional28 lines and 10 embedded references copied in
Proposal 1 and an additional 18 lines and 10 embedded references copied in Proposa~ 2. We
include these newly identified segments in our total line and embedded reference count discussed
below.

        Additionally, our office did examine two NSF proposals 78 the Subject submitted during
the course of the investigation. We found.no substantive plagiarism in the most recent proposal
she submitted. In the second proposal (Proposal4), we identified 3llines and 1 embedded
reference that were inadequately cited from eight sources. 79 The Subject submitted Proposal4
after the completion of the University's inquiry report and during the University's investigatory
process.

        Lastly, because Proposal! was funded, our investigation moved forward to determine if
the plagiarized text had been material to NSF's funding decision. We met with the cognizant
NSF Program Officer (P0) 80 to assess the materiality of the plagiarized text. The PO
unequivocally stated the plagiarized text in the section detailing the Subject's proposed research
was material to his decision to fund the proposal. Specifically, he said only 14 ofthe 60
proposals submitted to the program that cycle were funded. Furthermore, he stated that the
Su~ject's proposal was rar!ked 13th of 14 proposals chosen to receive funding, and given the
rar!king, had he known about the plagiarism in the section detailing the research plan, he would
not have chosen to fund Proposal 1. 81 The proposal was thus awarded due in part to plagiarized
text and the fraudulent representation that using such text entailed. Accordingly, we determined

74
   Tab 16, pg 1.
75
   Tab 16, pg 3.
76
   The University's appeal committee identified one deviation from University policy; the Subject was not provided
the full amount of time to respond to the committee's constitution. However, the appeal committee determined (Tab
11, pg 80-84), and we concur, that this did not significantly affect the investigation. The University and the Subject
agreed that the Subject could provide evidence from witnesses and technical experts. Despite repeated reminders
from University administration and the University delaying its process accordingly, the Subject did not produce the
testimony. Additionally, the appeal committee, which upheld the finding, included a technical expert.
77
   Tab 13.
78




                          sal4 and the eight sources.
                      Program Director of t h e · · · · · · · · · · · · · · · · · · · · · ·
                  and both the current program director and the program director at the time of the funding decision.
     Tab 18 contains a Memorandum of Investigation detailing the PO's comments.


                                                            9
 CONFIDENTIAL                                                                                         CONFIDENTIAL



 that the plagiarized text was material to the NSF PO's decision to fund the proposal, thus
 constituting a material false statement and violation of 18 U.S.C. § 1001. 82 We referred the
 violation to the U.S. Attorney's Office for the Eastern District of Virginia. The AUSA declined
 prosecution of the matter in lieu of administration action. 83

       A finding of research misconduct by NSF requires ( 1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence. 84

                                                       The Acts

         Our review found the Subject plagiarized 246lines and 12 embedded references, from 20
sources 85 into 3 proposals, one of which was funded. OIG concurs with the Report that the
Subject's actions constitute plagiarism. The Subject acknowledged that she had access to the
source documents and never contended that the annotated language was her own. In offering an
extensive amount of material composed by others as her own, the Subject seriously
misrepresented her own efforts and presented reviewers with an incorrect measure of her
abilities.

        The Report found the Subject's acts constitUted a significant departure from accepted
practices. We concur with the University's assessment.

                                                        Intent

        The Report concluded the Subject acted intentionally in plagiarizing material in
Proposals 1-3. It determined the Subject, based on her own statements, consciously chose which
sources to cite and which not to cite. It further concluded the Subject did not even follow her
own stated understanding of what material required citation. Additionally, it noted the Subject
showed the significance of some of the plagiarize<;l text by highlighting it via underlining, italics,
or other formatting measures. Lastly, the Committee found the Subject's explanations regarding
her actions often contradictory, suggesting she was not being wholly truthful in her testimony.
We concur with the University's assessment that the Subject's actions were intentional.




82
    18 U.S.C §1001. Statements or entries generally
    (a) Except as otherwise provided in this section, whoever, in any matter within the jurisdiction of the executive,
  legislative, or judicial branch of the Government of the United States, knowingly and willfully--
       (1) falsifies, conceals, or covers up by any trick, scheme, or device a material fact;
       (2) makes any materially false, fictitious, or fraudulent statement or representation; or
       (3) makes or uses any false writing or document knowing the same to contain any materially false, fi~titious, or
  fraudulent statement or entry; shall be fmed under this title, imprisoned not more than 5 years ...
83
   Tab 19 contains a Memoraildum of Investigation detailing our interaction with the AUSA.
84
    45 C.F.R. §689.2(c).                 .
85
   The 20 sources excludes Sources B-D our office identified and replaces them with the four sources the University
identified (Tab 13).


                                                          10
 CONFIDENTIAL                                                                        C ONFIDENTIAL




                                         Standard o{Proo{

      OIG concludes that the Subject's actions and intent were proven based on a
preponderance of the evidence.

        OIG concludes that the Subject, by a preponderance of the evidence, intentionally
plagiarized, thereby committing an act of research misconduct. 86


                                OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 87                        .


                                            Seriousness

        The Subject's actions are a serious violation of the standards of scholarship and the tenets
of general research ethics. Copied text serves to misrepresent one's body of knowledge,
presenting reviewers with an inaccurate representation of a proposal's respective merit.
The extent of the copied material is egregious. Additionally, as evidenced by the Subject's
continued acts of plagiarism, e.g., within Proposal 4, the Subject seemingly still does not
understand the seriousness of her actions and/or how to avoid further such acts. Lastly, three of
the four NSF proposals that contained plagiarism88 were submitted to programs that specifically
seek researchers who will serve as role models and mentors for their diverse students; the
Subject' s actions within those proposals suggest that with her current understanding of
plagiarism she could not serve fully in that role.

                             Degree to which Action was Intentional

        As explained above, OIG fmds that the Subject acted intentionally. The Subject
acknowledged that she reviewed her proposals to ensure she cited certain authors and texts. As
such, she made conscious decisions regarding what parts of the proposal to cite and what parts to
include as her own. The fact that she provided contradictory statements during her testimony



86
     45 C.F.R. part 689.
87
     45 C.F.R. § 689.3(b).
  Proposals 2 and 4 were targetedd ~to~th~e~~~~~~~~~~~~~~~~~~~~~P~r;op~o~s~al~l·,which
88

was awarded, was targeted to thel
program.


                                                 11
    CONFIDENTIAL                                                                                        CONFIDENTIAL



    suggests that she knew what she was doing was incorrect. We therefore conclude that her actions
    were distinctly intentionaL

                                                          Pattern

        The Committee identified plagiarism in four other proposals the Subject submitted,
additional plagiarism in Proposal1-3, and plagiarism in the Subject's dissertation. Additionally,
we identified plagiarism in an NSF proposal the Subject submitted during the course of the
investigation. We therefore conclude that the Subject had shown a pattern of plagiarism.


                                                   Recommendation

Based on the evidence, OIG recommends NSF:

                 •   send a letter of reprimand to the Subject informing her that NSF has made a
                     finding of research misconduct; 89

                 •   require the Subject to certifY to OIG's Assistant Inspector General for
                     Investigations (AlGI) that proposals or reports she submits to NSF do not contain
                     plagiarized material for 3 years; 90

                 •   require that the Subject submit assurances by a responsible official of her
                     employer to OIG's AlGI, that proposals or reports submitted by the Subject to
                     NSF do not contain plagiarized material for 3 years; 91 and

                •    require the Subject to complete an ethics course, which includes discussion on
                     citation practices, within 1 year and provide certification of its completion to OIG
                     upon completion. 92                                ;


                •    terminate the Subject's NSF award (Proposal1). 93




89
     A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(I)(i)).
9
 °Certification by an individual is a final action that is comparable to the final actions listed in 45 C.F.R.
91
                                                                                                              §689.3(a).
   Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(I)(iii)).
92
   Completing an ethics course is a final action that is comparable to the final actions listed in 45 C.F.R. §689.3(a).
93
   A termination is a Group III action (45 C.F.R. §689.3(a)(3)(i)).


                                                            12
